No. 19-339
IN THE

Supreme Court of tfje Untteti States!
EUGENE SONNIER, II,
Petitioner,
v.

CATHOLIC FOUNDATION OF THE DIOCESE OF
LAYFETTE, ET AL.,
Respondents.

CERTIFICATE OF SERVICE
I hereby certify that, pursuant to Supreme
Court Rule 29, three copies of the foregoing
Petition for Rehearing have been served upon
counsel for all parties to this proceeding by
mailing same by first class United States mail,
postage prepaid and properly addressed this 13th
day of December, 2019. (See
ies Below).

G. KARL BERNARD \

Troy A. Broussard, Esq.
Allen & Gooch
2000 Kaliste Saloom Rd Ste 400
Lafayette LA, 70508
(337) 291-1000
Attorney for The Catholic Foundation of
The Diocese of Lafayette, Society of The
Roman Catholic Church of The Diocese of
Lafayette, and The Congregation of Saint
Genevieve Roman Catholic Church

Ryan M. Seidemann
Christopher J. Lento
Assistant Attorneys General
Civil Division 1885 North Third Street
Baton Rouge, LA 70804-9005
(225) 326-6085
Attorneys for The Louisiana Cemetery
Board

Ms. Norlet Pierre
P.O. Box 92742
Lafayette, LA 70509
Pro se Defendant/Appellee

